■c

" |o3b
SUPREME COURT OF THE UNITED STATES

Robert V. Bolinske,

Civil No. 10-2516
Plaintiff-Appellant

v.

North Dakota Supreme Court, State of
North Dakota, Disciplinary Board the
N.D. Supreme Court, Office of Disciplinary
Counsel, Inquiry Committee West,
Dale Sandstrom, Gail Hagerty, Lisa K.
McEvers, Daniel Crothers,

PLAINTIFF APPELLANT
BOLINSKE’S PETITION FOR
A WRIT OF CERTIORARI

Defendants-Appellees.

Matthew A. Sagsveen, Esq.,
Attorney General’s Office
Natural Resources Division
Counsel for Defendants-Appellees

Robert V. Bolinske
Attorney Pro Se
7600 Northgate Drive
Bismarck, ND 58504

RECEIVED
m 1 3 2031

J- *

QUESTIONS PRESENTED FOR REVIEW

1.

Did the District Court and Eighth Circuit Court of Appeals err in refusing to allow
Appellant Bolinske the right to serve and file his proposed Amended Complaint?

2.

Did the lower courts err in granting, and refusing to reverse Defendant’s Motion
to Dismiss?

3.

Do exceptions to the Rooker - Feldman and Younger abstention doctrines here
exist, accepting all of the allegations set forth in Bolinske’s proposed Amended
Complaint as true?

4.

Have Bolinske’s First Amendment and Due Process rights been violated by
Defendants?

5,.

Should the Rooker, Feldman and Younger decisions be re-evaluated and clarified
to enable both Bolinske and Defendants to understand their rights and obligations
thereunder?

6.

Is North Dakota’s entire Attorney Disciplinary System unconstitutional in that it
allows the taking of an attorney’s property without (1) Due Process of law and
(2) without the protections afforded by the operation of the Rules of Civil
Procedure and other applicable law?

7.

Should Defendants be enjoined from further disciplinary action under their
iii

V

flawed, unlawful and unconstitutional system of attorney discipline?

8.

Should the federal courts abstain, under our system ofjustice and laws when,
given the conduct of Defendants, Bolinske has no possible remedy in state
court proceedings?

iv

>

•5

i

TABLE OF CONTENTS
Page

Table of Authorities

11

Questions Presented for Review

in

Introduction and Factual Background

1

Proceedings Below

17

Decisions Below

19

Law and Argument

20

Conclusion

27

TABLE OF AUTHORITIES
Page(s)
D.C. Court ofAppeals v. Feldman,
460 U.S. 462 (1983).......

20

Disciplinary Bd. V. Bolinske,
2019 ND 213,932 N.W.2d 368

7

Discover Bank v. Bolinske,
2020N.D.228 ...

7

Delano Grey Bear v. N.D. Dept, ofHuman Services,
651 NW 2d 611 (ND. 2002)......................

12

Gillette v. N.D. Disciplinary Bd. Counsel,
610 F.3d 1045 (8th Cir. 2010)

20

Petition ofBolinske,
2018 ND 72,908 N.W.2d 462

5

Ploujfe v. Ligon,
606 F.3d 890 (8th Cir. 2010)

20

Rooker v. Fid. Tr. Co.,
263 U.S. 413 (1923)

20

State ofNorth Dakota v. Shepard,
N.W. 2d 611 (N.D. 2002)

12

Younger v. Harris,
401 U.S. 37 (1971)

20

Statutes
N.D. Cent. Code 12.1-11-05

12

Other Authorities,
N.D. Rule of Professional Conduct 8.3 (a)

13

ii

SUPREME COURT OF THE UNITED STATES

Civil No. 10-2516

Robert V. Bolinske,
Plaintiff-Appellant

PLAINTIFF APPELLANT
BOLINSKE’S PETITION FOR
A WRIT OF CERTIORARI

v.
North Dakota Supreme Court, State of
North Dakota, Disciplinary Board the
N.D. Supreme Court, Office of Disciplinary
Counsel, Inquiry Committee West,
Dale Sandstrom, Gail Hagerty, Lisa K.
McEvers, Daniel Crothers,
Defendants-Appellees.
Robert V. Bolinske, Esq., Plaintiff-Appellant, Pro Se

Matthew A. Sagsveen, Esq., Attorney General’s Office, Natural Resources Division,
counsel for Defendants-Appellees.

I, Robert V. Bolinske, attorney at law, here pro se, respectfully submit this
Petition for a Writ of Certiorari in the above captioned matter.
INTRODUCTION AND FACTUAL BACKGROUND
1.

May It Please The Court. I have said those words, on countless occasions,

in thousands of cases. My name is Robert V. Bolinske.
2.

I have been a proud trial attorney for now over 50 years, representing everyone

from the most impoverished, to the most physically devastated, to America’s greatest
corporations and insurance companies.
3.

Believe me, I know Justice. And I know Injustice. I see it here.
1

■/'

4.

I was raised on a small farm literally in the middle of nowhere, on the edge of tiny

Oberon, North Dakota.
5.

When I was 12 years old we lost our farm, had an auction sale and, much like in

John Steinbeck’s “Grapes of Wrath”, put what we had left in our grain truck and moved
to Minot, North Dakota.
6.

It was there, when I was 12 years old, in a one room “apartment”, next to a bar,

when one day two “thugs” attempted to literally force their way in, to repossess what
little furniture we had. (My parents had apparently bought the $299 “three rooms of
furniture” on the “installment plan” and couldn’t make the payments.) My tiny,
courageous mother, then having 6 children, held the door against them, fought like the
tiger she was, and kept them from entering. She thereafter took me by the hand to
downtown Minot, up a flight of stairs, to see, of all people, an “attorney”, whatever that
was. He told us they had no right to push their way in and charged us $1.00. It was right
then and there that I decided that if an “attorney” could help people like us, then that was
what I wanted to be.
7.

Two years later, when I was 14, my father and I tore down our Oberon bam,

board by board, loaded up the rafters, set them in the dirt just outside of Rugby, North
Dakota. Thus was bom “Rugby Hide and Fur,” a wrecking yard and fur buying business,
Located in what had formerly been the top (haymow) of our bam.
8.

Again, power and injustice reared their ugly heads. The one dominant wealthy

2

such business in all of North Dakota, Porter Brothers, immediately proceeded to try to
drive my father out of business, (so that they could totally dominate the entire state of
North Dakota, and control the prices at which they bought and sold).
9.

My Resume, a Campaign Flyer I used in a campaign for a seat on the N.D.

Supreme Court, is included as Exhibit 1 in the Appendix to this Petition. (For the sake of
economy, all “letter” Exhibits, e.g. “A”, are found in the referenced herein Appendix
submitted to the Eighth Circuit Court of Appeals.
10.

In this case I allege that, likewise, the defendants have basically, attempted to

drive me out of business and further, in the process, silence my criticism of them in (1)
violation of my First Amendment Rights to Freedom of Speech and (2) without Due
Process.
11.

I contend that they have used their power to wrongfully, unlawfully, intentionally,

and maliciously, in bad faith, harassed and abused me, over the past some five years.
They have essentially stolen my life through the wrongful use of their decisions,
disciplinary system and control entities.
12.

I contend that their actions were taken in retaliation for my criticism of the North

Dakota Supreme Court and certain of its’ members, the North Dakota Supreme Court,
and its Disciplinary agents.
13.

I suggest that defendants were originally acting to support and cover-up

wrongdoings of their friends and colleagues, N.D. Justice Dale Sandstrom and his wife,
District Court Judge Gail Hagerty, who I alleged, had conspired to tamper with public
records on the N.D. Supreme Court website, a felony.
14.

I now contend that, as matters have evolved, and escalated, defendants are also

attempting to cover-up their very own wrong doings in failing to investigate Sandstrom
and Hagerty.
3

15.

In the process of attempting to protect themselves, defendants have

essentially thrown me, my career, my reputation, all the work I did to become an
attorney,, and my rights “under the bus.” I submit that they have wrongfully targeted me,
and are attempting to “take me down” to protect themselves by preventing an
investigation into their own behavior. My law license itself is in jeopardy.
16.

It’s not paranoia if someone is truly after you. I believe that, if given the

opportunity, I can prove all of my allegations. I see a distinct pattern of conduct on
defendants’ part, which, when woven together, paints a compelling picture of corruption
and wrong doing. Needless to say, if I am correct, their careers and reputations are on the
line, thus the motivation for their retaliatory actions against me.
17.

Contrary to the conclusions of the District Court and the Eighth Circuit Court of

Appeals, I am not seeking to “re-litigate” the disciplinary case against me. I am
attempting to seek Justice for wrongs done to me. In that process, it quite obviously is
necessary to review the underlying facts of the disciplinary case.
18.

For the factual basis of the origins of this case, please here read my proposed

Amended Complaint, Appendix Exhibit 2. (App.p.2) (I suggest that a reading of that
document will demonstrate to you that my allegations of tampering with public recors are
very likely true.)
19.

The actions of the defendants have gone on now for many years, and involve

three separate cases: (1) the Sandstrom-Hagerty matter; (2) the Carter-Watson matter;
(3) And, now, the latest case, which has just been concluded, the Discover Bank v.
Bolinske matter. I will first attempt to provide you with a broad over-view of these cases.

20.

In October, 2016, Bolinske alleged, in a Press Release, that Justice Dale

Sandstrom of the N.D. Supreme Court, and his wife, District Judge Gail Hagerty, had
conspired to move and hide public records critical of Judge Hagerty on the N.D. Supreme
4

Court’s website, which conduct CONSTITUTES A FELONY. Justice Sandstrom was
the sites “web master.”
21.

Judge Hagerty thereafter filed a disciplinary complaint-grievance against

Bolinske. That matter torturously wound its way through the N.D. Supreme Court’s
Disciplinary System, including the Inquiry Committee West, the Disciplinary Board and
eventually, the N.D. Supreme Court itself, a brutal, farcical two year process, fraught
with their incompetence and a lack of due process.
22.

Despite the fact that Bolinske had spent over two years investigating the matter,

and submitted over 500 pages in support of his allegation, it was concluded that
Bolinske’s allegations had been made either “knowingly” that they were untrue, or
with “reckless disregard” as to their truth or falsity.
23.

For reasons set forth in Bolinske’s many submissions filed with the Inquiry

Committee, the Disciplinary Board and the N.D. Supreme Court Bolinske vehemently
disagreed, and disagrees, with the findings and conclusions of the identified entities.
(Those documents were filed in Disciplinary File No. 6070-W-1610 and N.D. Supreme
Court File No. 20170333. Petition of Bolinske. 2018 N.D. 72, 908 N.W. 2d 462)
24.

Despite the obvious seriousness of Bolinske’s allegations (had they in fact been

made “knowingly” or “with reckless disregard” of their accuracy) Bolinske received
only a “slap on the wrist”, a private reprimand, from the Disciplinary Board. (The Board
made absolutely no analysis and refused to allow access to the “record” upon which it
made its decision.) It is submitted that the Board’s “decision” was basically “contrived”,
and made in the belief that “the matter would simply go away.”
25.

However, not being satisfied with the phony decision, (and insult to his

character), Bolinske appealed to the N.D. Supreme Court. That Court, through sleight of
hand procedural maneuvering, affirmed the Board’s decision. Although the N.D.
5

Supreme Court was obligated to review the matter “de novo”, the Court conveniently
decided to review only the procedural process, a truly meaningless exercise. By doing
so, the N.D. Supreme Court intentionally managed to totally avoid publicity and
discussion of or a decision regardingthe actual facts of Bolinske’s allegations against
Sandstrom and Hagertv. In this way they managed to conceal the seriousness of
Bolinske’s allegations,, and the Court’s prior failure to even investigate the matter.
26.

Justice McEver, acting as Chief Justice on the case, actually prevented the

examination and evaluation by the Court of two “smoking gun” Exhibit Documents
which demonstrated the errors and falsity of the Disciplinary Board’s decision, even
though both documents were actually already on file at the N.D. Supreme Court.
27.

Bolinske contends that the N.D. Supreme Court’s decision was just a blatant

cover-up of (1) the Justice’s failure to investigate his allegations against their friends
and colleagues, Sandstrom and Hagerty, and of (2) the facts demonstrating that
Bolinske’s allegations were likely actually true, and not made “knowingly” to be untrue
or with “reckless disregard” thereof.
28.

The basis for Bolinske’s allegations against Sandstrom and Hagerty, again, are

found in Bolinske’s Amended Complaint in Bolinske v. N.D.Supreme Court, the State of
N.D., the Disciplinary Board of the N.D. Supreme Court. Office of Disciplinary Counsel.
Inquiry Committee West, Justice Sandstrom. Judge Hagertv. and N.D. Supreme Court
Justices McEvers and Crowthers. an action filed in October, 2018 in U.S. District Court
for the District of N.D., Southwestern Division, Case No. 1:18-CV-213. That Amended
Complaint is attached hereto as Exhibit 1 (App.p.2) and is hereby incorporated herein as
if set forth in full. (Defendants Justice’s McEvers and Crothers were in fact served in
that action as admitted by their attorney.)
29.

Bolinske’s next encounter with the above referenced Defendants was in
6

connection with a case entitled Disciplinary Board of the N.D.Supreme Court of the State
of North Dakota v. Robert V. Bolinske. Sr.. 2019 ND 213. 932 N.W. 2d 368. a matter
begun in 2017 involving a complaint filed against Bolinske by Carter and Watson,
Disciplinary Files Nos. 6176-W-1708 and 6177-W-1708, Supreme Court Nos. 20190109
and 20190110. All documents filed and decisions made therein may be examined on the
North Dakota Supreme Court website.
30.

In that matter, in short, Bolinske’s fee agreement with his clients was involved.

That fee agreement combined a $10,000.00 retainer together with an hourly rate payment.
Despite the fact that there was not one case in the entire nation holding to the effect
that that fee agreement was in any way improper, the matter was, like the Sandstrom
matter, vigorously pursued for some two years. Bolinske prevailed pretty much
completely in that case, fighting off phony issue after phony issue.
31.

Bolinske contends that, so as not to have to admit total defeat, the N.D. Supreme

Court and its disciplinary entities “tagged” Bolinske with a finding that he had not
returned the client’s files, consisting of some 73 pounds of documents. The problem with
that conclusion was that the only evidence in the entire case was that the clients
already had copies of the entire file. There was absolutely no evidence to the contrary.
In upholding this sketchy decision the N.D. Supreme Court didn’t even discuss that fact.
32.

Unbelievably, despite the fact that they were then actually defendants in the U.S.

District Court action, Justice Crowthers joined in the decision and Justice McEvers
participated in prior discussion of the case, but recused herself from the actual written
opinion itself.
33.

The next case was Discover Bank v. Robert V. Bolinske. Sr.. N.D. Supreme Court

No. 20200098, 2020 N.D. 228 the decision in which, and all documents filed in the case,
are also on the North Dakota Supreme Court website.
7

34.

Despite the fact that Justices Crowthers and McEvers were then actually being

sued by Bolinske. Sr., they failed to recuse themselves. (Bolinske had no advance
notice that they would in fact sit on and decide the case, since, by N.D. Supreme Court
Rule, there was no oral argument.)
35.

In fact, Justice McEvers actually wrote the decision of the Court, and Justice

Crowthers was Acting Chief Justice.
36.

Here is Bolinske’s analysis of exactly what he contends is here going on and

which explains the decisions and behavior of certain members of the N.D. Supreme
Court and its disciplinary agents. No fair-minded person could actually read the facts set
forth in Bolinske’s Amended Complaint in the U.S. District Court action (which facts
were at all times before the N.D. Supreme Court and its disciplinary entities) and
conclude “by clear and convincing evidence (the applicable standard of proof) that
Bolinske’s allegations against Justice Sandstrom were made (1) “knowing” that they
were untrue or (2) in “reckless disregard” of their truth or falsity. Yet, that is exactly
what was wrongfully here conducted. Why? Because the N.D. Supreme Court and its
disciplinary entities (1) were protecting their friends and colleagues, Sandstrom and
Hagerty, at Bolinske’s expense, and (2) covering up their own failure to seriously
investigate the matter.
37.

Bolinske was given a private reprimand, just a “slap on the wrist,” which

punishment, if he had actually intentionally made such serious false allegations, would
hardly be appropriate. Someone, it is believed, mistakenly concluded (“hoped”) that by
imposing no serious discipline, Bolinske would allow the matter to “just go away.”
38.

It didn’t. Bolinske appealed the Disciplinary Board’s decision. Faced with now

a real dilemma, the N.D. Supreme Court contrived to not conduct a true “de novo”
appeal as it was obligated to do, and sought to, and succeeded in not addressing the facts
8

of the case at all. Thus, once again it sought to protect now not only Sandstrom, but also
the Court itself for failing to conduct any meaningful investigation into Bolinske’s
allegations against Sandstrom. By its procedural maneuverings, it is submitted the Court
only dug itself into a deeper hole, and continued cover-up.
39.

When next “getting a shot” at Bolinske in the Carter and Watson fee agreement

matter, the N.D. Supreme Court and its disciplinary entities, over whom it has virtually
complete control, once again put Bolinske through over two years of zealous prosecution,
again despite there being, in the entire nation, even one case holding that his fee
agreement was improper. And, again, to avoid having it appear that Bolinske had
actually won, he was “tagged” with allegedly failing to return the client’s 73 pound
document file, even though Bolinske testified the clients already had copies of those same
documents. There was no evidence to the contrary. The N.D. Supreme Court, in an
attempt to somehow surmount this fact, simply chose not to even discuss it in its opinion.
40.

Come we now to the Discover Bank v. Bolinske case, 2020 N.D. 228. In an

opinion written by Justice McEvers, the Court seemingly goes out of its way at every
opportunity to find against Bolinske. Bolinske mis-addressed his Answer and
subsequently a default judgment was entered against him. Clearly, Bolinske’s mistake in
addressing the envelope was the result of “mistake, inadvertence, surprise, or excusable
neglect.” Bolinske’s temporary secretary failed him by not finishing the job. Having to
address the envelope in the dark, late at night in his car to get it in the mailbox before
midnight, Bolinske’s aged eyes failed him. He misread the P.O. box number of the
address. Justice McEvers writes that Bolinske cites no “precedent” of his claim of
“mistake”. et.al., to re-open the Judgment. For goodness sake, N.D.R.Civ.P. 60 (b)(1) is
“precedent”, (the “law” if you will) and calls for a factual determination of whether that
Rule applies. It is a decision just like juries make all the time. Further, default judgments
9

are frowned upon because, in our justice system, we want decisions made on the merits.
Bolinske here in fact made an appearance. Justice McEver’s fails to mention in her
decision that not only did Bolinske leave a voicemail, he also advised Discover Bank’s
counsel’s agent and employee, in a recorded telephone calk of the factual background of
the case and that he was making an appearance in the case. (Attorneys and staff at the
law firm refused to take Bolinske’s call so he was left with no alternative.) Then,
Discover Bank’s attorneys allowed two days to go by (prior to entry of the default
judgment during which they failed to advise the District Court that Bolinske had in fact
“made an appearance.” The list of adverse decisions made by Justice McEvers goes on
and on.
41.

The problem is that Justice’s McEvers, who wrote the opinion, and Justice

Crowthers, who also heard and decided the case should have recused themselves. They
were, at the very time of their decision, being sued by Bolinske in this U.S. District Court
action. Needless to say, in any fair system, Bolinske’s adversaries in one case should not
be deciding his fate in another.
42.

Please see N.D. Supreme Court Justice Meschke’s opinion in Reems v. St.

Joseph’s Hospital. 536 N.W. 2d, N.D. 1995 discussing a judge’s duty to recuse him or
herself. Justice Meschke stated “disqualification for bias depends not on whether the
judge believes he can preside fairly and impartially; rather, it depends on whether the
litigants can reasonably question the judge’s impartiality.” A fair trial in a fair tribunal is
a basic requirement of due process. The principle that requires the appearance of
judicial impartiality is deeply embedded in our legal system. Under our rules, a
judge is disqualified “whenever the judge’s impartiality might reasonably be questioned.”
43.

In any fair system of justice, both Justice McEvers and Justice Crowthers should

have recused themselves, but, so as to control the decision, and further do damage to
10

Bolinske, they didn’t.
44.

Further, Bolinske actually ran against Justice McEvers for a seat on the N.D.

Supreme Court in 2018, and caused her to expend literally tens of thousands of dollars in
personal funds in the election. That fact, combined with being presently sued by
Bolinske should also have caused her to recuse herself.
45.

(Bolinske in no way contends that any of his allegations apply to the Chief Justice

of the N.D. Supreme Court, Justice Jon Jensen. It is noted that Justice Jensen has
recused himself in the Discovery Bank matter. It is surmised that Justice Jensen, who was
not on the Court originally, when the Hagerty complaint-grievance was heard,
realizes the truth of Bolinske’s allegations against Sandstrom, and does not wish to
become involved in what Bolinske contends is a cover-up of that fact by other members
of the Court.
46.

Why didn’t, it must be asked, members of the Court simply ask Justice Sandstrom

about the accuracy of Bolinske’s allegations against him? And, why, despite being
invited many times by both the media and Bolinske to admit or deny Bolinske’s
allegations, has former Justice Sandstrom chosen to remain silent? Why didn’t the N.D.
Supreme Court originally investigate this matter as it should have? Obviously if
Bolinske’s allegations against Sandstrom are true, Defendants’ entire vicious house of
cards and vicious retaliatory actions against Bolinske will be exposed, at great damage to
Defendants.
47.

It is not purely paranoia to suggest that the N.D. Supreme Court, through

several of its members, and it’s disciplinary entities and process, is attempting to silence
and punish Bolinske. Why? To deter him and other attorneys from further investigation
into and criticism of the N.D. Supreme Court. Bolinske has chosen to bet his very career
and reputation on the truth of his allegations. Is it truly asking too much to have them
11

fairly investigated? Quite apparently, for the N.D. Supreme Court, it is.
48.

So as to avoid any possible misunderstanding of my (Bolinske’s) position it is

this: I, Robert V. Bolinske, Sr., my reputation, hardwork in becoming an attorney, and
legal career have been wrongfully thrown under the bus and my very license to practice
law threatened by the individuals and entities above named in a totally unjust and corrupt
attempt to (1) save and protect themselves and (2) their friends, Hagerty and Sandstrom.
Their conduct is also (1) an abuse of their authority and (2) an utterly despicable denial of
Due Process and Justice itself, by those who have taken a sacred Oath to protect them.
SPECIFIC FACTUAL BACKGROUND
49.

In October, 2016,1 alleged in a press release that substantial evidence existed

that Justice of the N.D. Supreme Court Dale Sandstrom, while a Justice, had
committed a felony in violation of N.D.C.C. §12.1-11-05 which prohibits tampering
with public records. I further alleged that Sandstrom had conspired with his wife
District Judge Gail Hagerty to misfile and hide a Petition for Supervisory Writ I had
filed with the N.D. Supreme Court which was highly critical of Hagerty. Somehow,
mysteriously, the Petition which was filed in a civil case was transferred to and
essentially hidden in public records in a criminal case in which Justice Sandstrom had
previously written the decision.
50.

Civil and criminal cases have vastly different (1) case and (2) docket

numbering systems. Criminal cases are designated, e.g., “Criminal No. 960066”.
(This is the State of N.D. v. Paul Shephard. 554 N.W.2d 861 (N.D. 1996) case in
which my Petition highly critical of Sandstrom’s wife, Hagerty, was placed and
essentially hidden.) Civil cases, as in which my Petition for a Supervisory Writ was
filed, are designated, e.g., (1) “20000075 R.S.S.”, which was the docket number and
(2) the case designation was “Civil No. 99-C-1007” for the Supervisor Writ case
against Hagerty. (Delano Grey Bear v. N.D. Department of Human Services. 651
12

N.W. 2d 611 (N.D. 2002).)
51.

Further, the Petition for a Supervisory Writ in Grey Bear was a civil case begun in

2000 and ultimately decided by the N.D. Supreme Court in 2002, while the Shepherd
case was decided in 1996. Thus, we have records from a civil case (Grey Bear) begun in
2000 being placed in the records of a criminal case (Shepherd) in which the decision
written by Sandstrom was issued in 1996.
52.

Justice Dale Sandstrom was the creator of the N.D. Supreme Court website,

was the website’s “Web-Master”, and had total control over and access to the website
in which the records were misplaced and hidden from public view. Sandstrom, as
Hagerty’s husband, had both motive and opportunity to make the improper and
unlawful record transfers.
53.

Prior to making the above allegations I did some two years of investigation,

research and analysis, and submitted approximately 350-500 pages of evidence and
analysis in support of my claims.
54.

I am an experienced trial lawyer, graduated from the University of

North Dakota magna cum laude, Phi Beta Kappa and with Honors in 1966, and
graduated from Harvard Law School in 1969. I would not have made the subject
allegations unless I believed them to be true and had accumulated substantial
evidence in their support.
55.

Further, Rule 8.3, (a.), Reporting Professional Misconduct, (the N.D.

Rules of Professional Conduct) provides that “A lawyer who knows that another
lawyer has Committed a violation of these Rules that raises a substantial question as
to that lawyer’s honesty, trustworthiness, or fitness as a lawyer in other respects shall
initiate proceedings under the North Dakota Rules for Lawyer Discipline”.
(Emphasis added.) That is exactly what I did in filing a Grievance Complaint against
13

(Exhibit C) Sandstrom and Hagerty. In it I alleged that not only did they conspire to
and actually tamper with public records, but that they also repeatedly failed to recuse
themselves as Judges in Bolinske’s cases. That Complaint was not even seriously
investigated but was instead wrongfully summarily dismissed by the Office of
Disciplinary Counsel. Instead, it was me who was placed in the stocks in a
farcical, unfair, incompetent and unconstitutional grievance procedure created by the
North Dakota Supreme Court and administered by the Office of Disciplinary
Counsel, the Disciplinary Board of the N.D. Supreme Court, and the N.D. Supreme
Court itself.
56.

“As a public citizen, a lawyer should seek improvement of the law, the

administration of justice and quality of service rendered by the legal profession”
Preamble: A Lawyer’s Responsibilities - N.D. Rules of Professional Conduct. That
is exactly what I was attempting to accomplish in reporting what I believed to be the
unlawful and wrongful conduct of Justice Sandstrom and his wife District Judge
Hagerty.
57.

Judge Hagerty filed a Grievance Complaint against me dated October 21,

2016, alleging that my allegations above described violated the N.D. Rules of
Professional Conduct. I denied that my conduct was unethical, and contended that
I was actually ethically required to report the suspected violation.
58.

The Inquiry Committee, after a minimal 30-45 minute hearing in March, 2017

found that I violated Rules of Professional Conduct relating to making false
statements concerning the qualifications of integrity of a judge. It further concluded
that my allegations were made “knowingly or with reckless disregard as to
their truth or falsity”. I steadfastly deny the accuracy of that finding and
contend that I can prove its falsity with the N.D. Supreme Court’s very own
14

documents.
59.

The Inquiry Committee based its finding solely on its conclusion that

my allegations were made “knowingly or with reckless disregard of their “truth
or falsity” because Chief Justice VandeWalle had advised Bolinske in a letter
dated September 19, 2008, that the misfiling had occurred as a result of “clerical
oversight”. First, that is not what Justice VandeWalle said at all. Instead, in his
letter, he said that “they are unsure of what happened. However, sometime ago data
was transferred from one machine to another and it appears that during the transfer
the improper case name was entered for the above (Re: Bolinske v. Hagerty) case”.
Second, a letter dated October 30, 2008 from N.D. Supreme Court Chief Deputy
Clerk Colette Bruggman to Bolinske specifically states, as to the cause of the misfilings, that “The information provided tends to rule out data transfer as the cause”.
Thus, the N.D. Supreme Court’s very own records clearly establish that the basis for
the Inquiry Committee’s decision is factually erroneous in that it makes clear that the
“clerical mistake” during a “data transfer” was not the cause of the records being
hidden.
60.

Then, when I appealed the Inquiry Committee’s decision to the Disciplinary

Board of N.D. Supreme Court, the decision was affirmed with no hearing, no opportunity
for Bolinske to appear, no record of its proceedings, no analysis, discussion or
explanation whatsoever. In its letter decision dated July 24,2017, the Disciplinary
Board states only the conclusion that “the Disciplinary Board affirmed the decision
of the Inquiry Committee_the Inquiry Committee West to issue an admonition”.
Consequently, in any appeal to the N.D. Supreme Court, which I pursued, there was
no record, no analysis and no explanation to review, effectively denying me the
opportunity and right to review the Disciplinary Board’s decision.
15

61.

I appealed to the N. D. Supreme Court, which, without investigating or

even discussing the actual facts of the case, affirmed the Disciplinary Board’s decision.
62.

I contend that the entirety of North Dakota’s disciplinary procedures, rules and

the implementation thereof were in this case a farce and a sham in that I was unlawfully
denied my substantive and procedural Due Process rights under the U.S. Constitution,
all to my substantial damage, in that I was subjected to the potential taking or suspension
of my property in the form of my hard-earned law license and right to practice law,
substantial emotional distress and the serious financial losses which I suffered in being
required to respond to the machinations, allegations, lack of competence, and farcical
procedures of the North Dakota Supreme Court and its agents, the Office of Disciplinary
Counsel and the Disciplinary Board.
63.

More specifically, I was denied in the above proceedings before the

Inquiry Committee and/or Disciplinary Board:
(1) A jury trial of his peers and right of voir dire;
(2) The right of cross-examination;
(3) The right to confront his accusers;
(4) The right to call witnesses;
5) The right to record the proceedings at the Inquiry Committee and the
Disciplinary Board stages;
(6) The right to a reasonable amount of time to present his case, not the mere 3045 minutes as he was here given by the Inquiry Committee;
(7) The right to even appear and argue my case before the Disciplinary Board;
(8) All the protections afforded to me by the rules of civil procedure and rules
of evidence;
(9) The right to know the nature and definitions of the allegations against me in

16

that the words “with reckless disregard” are nowhere even defined in the Rules of
Professional Conduct. Nor is the meaning of “clear and convincing evidence.”
the standard that must be reached before discipline of any type may be imposed
on a lawyer).
(10) The right to discovery;
(11) The right to see and challenge the report prepared by Disciplinary Counsel;
(12) The right to respond to Findings of Fact and Conclusions of Law, because
there were here none created, resulting in the denial of a meaningful appeal
process.
64.

Even North Dakota Supreme Court Justice Crowthers, at oral argument,

questioned the process, rules and procedures used in the disciplinary process and
suggested that they be “tweaked”. Instead, Bolinske submits that they be taken out
behind the bam and shot. It is a disgrace that this extremely flawed system, created by
attorneys of all people, should be allowed to exist, and jeopardize the rights and
reputations of attorneys.

PROCEEDINGS BELOW
65.

Plaintiff Bolinske was served with a Motion to Dismiss based largely on claims

that certain elements of his Complaint were insufficient. Bolinske then prepared, filed
and served a proposed Amended Complaint and brought a motion for leave of the Court
to serve and file the Amended Complaint pursuant to Rule 15.
66.

For the sake of economy, plaintiff Bolinske also incorporated the facts and

allegations set forth in his proposed Amended Complaint as part of his Response to
defendants Motion to Dismiss.
67.

Defendants’ attorneys, in their Memorandum in Support of Motion to Dismiss,
17

succinctly set forth the legal standards applicable to a Rule 12 Motion to Dismiss at page
2. “The same standards are applied to a Rule 12(b)(1) and a 12(b)(6) motion to
Dismiss.” Gray v. Devils Lake Pub. Sch.. 316 F. Supp. 3d 1092, 1098 (D.N.D.
2018) (citing Satz v. ITT Fin. Corn.. 619 F.2d 738, 742 (8th Cir. 1980). When
Ruling on a motion to dismiss, the court must accept the allegations in the
complaint as true. Bell Atl. Corp. v. Twombly. 550 U.S. 544, 12(b)(6) claim
is to test the legal sufficiency of a complaint so as to eliminate those actions
“which are fatally flawed in their legal premises and deigned to fail, thereby
sparing the litigants the burden of unnecessary pretrial and trial activity.
Young v. City of St. Charles. 244 F.3e 623,627 (8th Cir. 2001). The court
will grant a motion to dismiss if the complaint fails to contain “enough facts
to state a claim to relief that is plausible on its face.” Twomblv. 550 U.S. at
570.”
68.

Defendants’ attorneys then kindly set forth the flaws in Bolinske’s original

Complaint, kind of like a roadmap, in their Memorandum in Support of Motion to
Dismiss dated November 14,2018.
69.

In response, Bolinske went through all claimed deficiencies and prepared an

Amended Complaint, adding facts that, according to Defendants’ cited cases, would, if
ultimately proven, defeat Defendants’ legal arguments.
70.

The first motion before the District Court was Bolinske’s Motion to Amend, his

Complaint. As the Court well knows, leave to amend a Complaint shall be “freely
given.” Bolinske contended that once Bolinske’s Motion to Dismiss, which is directed at
the original Complaint, because it is submitted, pretty much moot and should have been
denied. It appears to Bolinske that, then, if defendants’ are so inclined, that they would
have to bring a second Motion to Dismiss directed at the Amended Complaint.
71.

In further support of his Motion to Amend, Bolinske submitted the following

documents, incorporated herein just as if set forth in full:
1. Bolinske’s Briefs to the North Dakota Supreme Court in a new
disciplinary proceeding against Bolinske. (Exhibits H and I)

18

2. Respondent Bolinske’s corrected (1) Objections to Hearing Panel Report
and (2) Petition for Review and (3) Request for Oral Argument in the North
Dakota State court grievance proceeding against Bolinske. (Exhibit G)
3. Bolinske’s Notice of Claim filed with the N.D. Office of Management and
Budget dated 9-19-17. (Exhibit A)
72.

These documents were provided to the Court to show the ongoing actions of

defendants against Bolinske. These materials were provided also because, as
defendants’ attorneys point out in their Memorandum in Support of Motion to Dismiss at
p.2:
“The court may generally only look to the allegations contained in the complaint
to make a Rule 12(b)(6) determination. MccAulev v. Fed Ins.Co.. 500 F 3d 784,
787 (8th Cir. 2007). However, in considering a motion to dismiss, the district
court may sometimes consider materials outside the pleadings,such as materials
that are necessarily embraced by the pleadings and exhibits attached to the
complaint.” Mattes v. ABC Plastics. Inc. 323 F .3e 695 n. 4 (8th Cir.
2003)(citation omitted.) “in this circuit, Rule 12(b)(6) motions are not
automatically converted into motions for summary judgment simply because one
party submits additional matters in support of or opposition to the motion.. .Some
materials that are part of the public record or do not contradict the complaint may
be considered by a court in deciding a Rule 12(b)(6) motion.” Nixon v. Coeur
D’Alene Tribe. 164F.3e 1102, 1107 (8th Cir. 1999)."
DECISIONS BELOW
73.

Instead of proceeding as requested by Bolinske, after a Hearing, at which oral

argument was presented, the Honorable Donovan W. Frank, District Judge, in his
Memorandum Opinion and Order, dated June 20,2019 denied Bolinske’s Motion to
Amend Complaint Without Prejudice and Granted, Without Prejudice, defendants’
Motion to Dismiss. It is from that Order and resulting Judgment Bolinske appealed to the
Eighth Circuit Court of Appeals, which affirmed Judge Frank’s decision in an opinion
filed August 4,2020.

19

LAW AND ARGUMENT
74.

Judge Frank based his decision upon the so-called Abstention Doctrines set forth

in Younger v. Harris. 401 U.S. 37.43 (1071) and Rooker-Feldman. Rooker v.Fidelity
Trust Co.. 263 U.S. 413 (1923) and District of Columbia Court of Appeals v. Feldman.
460 U.S. 462 (1983). The Abstention Doctrines, hold, generally, that district courts
lack subject matter jurisdiction over challenges to state court judgements.
75.

Bolinske respectfully submits that Judge Frank was in error, in that exceptions,

here present and alleged in the Amended Complaint, make the Abstention Doctrines
above referenced here inapplicable.
76.

Younger, supra, held that a district court must abstain when the moving party

has an adequate remedy at law and will not suffer irreparable harm, and (1) there is a
pending state proceeding, (2) that implicates an important state interest and (3) affords
an adequate opportunity to raise federal statutory and constitutional challenges. See,
Gillette v. N.Dakota Disciplinary Bd. Counsel. 610 F. 3d 1045, 1048 (8th Cir.210).
77.

In Younger, the Supreme Court held that federal courts may not enjoin pending

state court criminal proceedings absent a showing of “bad faith, harassment or any other
unusual circumstance that would call for equitable relief.” 401 U.S. at 54, 91 S.Ct. 746.
These principles are also extended to civil cases. See, e.g., Middlesex County Ethics
Committee v. Garden State Bar Ass’n. 457 U.S. 423 (1982).
78.

In Plouffe v. Ligon. 606 F.3d 890 (8th Cir. 2010), the Court stated “Even if these

three requirements Uisted abovel are met, a federal court should not abstain if there is a
showing of “bad faith, harassment or some other extraordinary circumstance that would
make abstention inappropriate.” Plouffe, supra, pp 892-3. (Emphasis added)
79.

In Plouffe. the court also stated “We generally review the grant of a motion to

dismiss de novo, accepting the allegations in the complaint as true and construing them
20

in the light most favorable to the non-moving party.” Plouffe. at 893.
80.

Bolinske submits that two of the three elements of the above referenced test are

not here present. There is no ongoing state court proceeding in which Bolinske’s
constitutional rights can be protected. They were already run over roughshod, and denied
in the entire disciplinary process. And, there is here no adequate remedy except
in the federal courts.
81.

For (1) alleging that N.D. Supreme Court Justice Dale Sandstrom and his wife,

District Court Judge Gail Hagerty appeared to conspire to commit a felony, (tampering
with, transferring and hiding public records on the N.D. Supreme Court website) and
otherwise criticizing “justice” in North Dakota, Bolinske has been pilloried. No one
has investigated or sought to hold accountable Justice Sandstrom and his wife, District
Judge Hagerty, despite specific requests to the N.D. Supreme Court, the N.D. Attorney
General, and N.D. Disciplinary Counsel. (Disciplinary Counsel, in fact, despite the
considerable evidence submitted by Bolinske, summarily dismissed a Grievance
Complaint brought by Bolinske against Sandstrom and Hagerty, with no investigation
whatsoever.
82.

(Exhibit C)

The N.D. Supreme Court and its controlled underlings, have essentially stolen

some five years of Bolinske’s life by tying him up in endless, frivolous, baseless
grievance litigation, causing him substantial financial, emotional, physical and
reputational damage.
83.

It is further submitted that the above referenced entities and defendants have, by

their actions, attempted to silence Bolinske, and deter the exercise of his First
Amendment free speech rights.
84.

Not done with Bolinske yet, the defendants went after Bolinske again in an

equally specious disciplinary proceeding. Please see the The Disciplinary Board v.
21

Bolinske. 2019 N.D.213, decision and related materials in the Appendix. (Exhibits E, F,
G, H, I, J and K)
85.

And, further demonstrating their unfairness, one of the defendants, Justice

McEver’s, who Bolinske announced he was running against for a seat on the N.D.
Supreme Court, actually participated in this case as the active Chief Judge at the
oral argument before the N.D. Supreme Court. While she did thereafter recuse herself it
is suggested that her prior participation in the case, in discussion prior to the decision,
and in her ruling inadmissible two “smoking gun” documents establishing the guilt of
Sandstrom and Hagerty, created by the Supreme Court itself, and referenced and quoted
in the record, so tainted the procedure and decision as to deny Bolinske due process.
86.

And, again, believe it or not, Justice Crowthers, WHILE he was actually a

named defendant in this case, sat upon, heard, and decided the second Grievance, (the
Carter-Watson fee agreement matter) Disciplinary Board v. Bolinske case, 2019 N.D.
213, a clear conflict of interest.
87.

How can it possibly be fair and just that an adverse party in a lawsuit gets to

sit on a case as the acting Chief Justice and decide adversely another disciplinary matter
brought against Bolinske?
88.

Further, Justice Crowthers, (a defendant in the case now before you) himself

actually made a ruling in the second Grievance matter, the Disciplinary Board v.
Bolinske case, supra, in which, it is submitted, allowed into evidence improper material
which was then conveniently used as the very basis for concluding that Bolinske
improperly failed to return the clients files. (Please see Exhibit J, Bolinske’s letter to the
N.D. Supreme Court dated July 1,2019 for the factual circumstances of that matter.)
Bolinske testified, and there was no testimony to the contrary, in the record or otherwise.
that the clients already had the 73 pounds of documents making up Bolinske’s file.
22

making the duplication and return of these same documents an expensive and
meaningless folly, because the clients already had them.
89.

Please also see Peterson v. Sheran. 635 F.2d 1335 (8th Cir.) 1980 in which

this court stated
“Preliminarily, we must respond to appellee’s contention that federal
courts generally lack subject matter jurisdiction over deprivations of
federal constitutional rights alleged to have occurred in state judicial
proceedings. Appellees’ argument seems to be that, because decisions
of the highest state court on federal constitutional *1339 issues can only
be reviewed in the United States Supreme Court, relief from deprivations
of constitutional rights in state judicial proceedings is not available
under 42 U.S.C. § 1983 and 28 U.S.C. § 1343. We reject this contention.
Federal courts have jurisdiction over claims that state judicial proceedings
have resulted in deprivations of federal constitutional rights as long as the
claims are otherwise properly before the federal courts.” (citing cases;
635 F.2d. at 637)
90.

The Court, in its decision though, denied Appellant Peterson relief because

his action was filed in federal district court during the pendency of his case in state
court. That is not true in this case. The North Dakota Supreme Court had already
ruled against Bolinske when this. Bolinske’s action, was filed in federal district
court. Petition of Bolinske. 2018 ND 72, 908 N.W.2d 462, reh’g denied (N.D. 2018).
91.

And, further, unlike in Peterson, supra.. Bolinske did present his federal

claims in state court, and he did allege specific claims of bias, harassment and
denial of procedural and substantive due process.
92.

(In the second grievance against Bolinske, the Watson-Carter grievance,

(Disciplinary Board v. Bolinske. 2019 N,D. 213 (N.D.2019) Bolinske waived all his
constitutional claims (for this very reason) so that they would not be “pending” in state
court, not, as the Eighth Circuit erroneously apparently believed, in this case presently
before you.)

23

93.

On a simple motion to amend my complaint, which pursuant to the Rules of Civil

Procedure, should be (1) “freely given” (Rule 15) and considering that (2) a Complaint
need only be “a short and plain statement of the claim showing that the pleader is entitled
to relief’ (Rule 8), and that the Rules “should be construed and administered to secure the
just, speedy and inexpensive determination of every action” (Rule 1), I now find myself
more than over 24 months after commencement of the action before you, the United
States Supreme Court, fighting to simply amend my Complaint. Speedy? Simple? Just?
Inexpensive? (Rule 1). Hardly. (There is something horribly wrong with this picture. It
should be no secret why American people are angry. I submit that it is largely because
they don’t believe they can get JUSTICE for their grievances against “the government”
and other abusers of their rights. They can’t even afford an attorney. Hell, I am an
attorney and just look how far I have progressed.)
94.

District Judge Frank and the Eighth Circuit have judged my case even though

they have not heard it. I have not even yet, after two years, set foot on the litigation
battlefield to use all the tools of Discovery to support my allegations, let alone get my
case before a jury, where I certainly intend to ultimately prevail.
95.

No, they say, I can’t even amend my Complaint, even though the laws requires

that they accept, on my motion to amend before them, all my allegations as true.
96.

I respectfully suggest that if all my allegations are true, which I contend they are,

there should be absolutely no question that I be entitled to try them before a jury of my
peers.
97.

I have alleged, and believe I can prove, if given a chance, that the North Dakota

Supreme Court and its controlled disciplinary entities chose to, in their decision in this
case, to favor and protect their colleagues and friend Justice Sandstrom and his District
24

Court wife, Judge Hagerty.
98.

I again allege that the North Dakota Supreme Court, in an effort to protect

itself from charges of corruption for not investigating Justice Sandstrom is in
subsequent decisions and disciplinary actions against me, further seeking to also
protect itself, at my expense, by, basically trying to silence me. (The cover-up, it is said,
is always worse than the initial misdeed.)
99.

Again, I am not, in this present case before you, “attempting to relitigate” the state

disciplinary proceedings as concluded by Judge Frank and the Eighth Circuit. I am
attempting to protect my Free Speech rights and recover damages for wrongs I assert
have been done to me, my name, reputation and career.
100.

The background information included with respect to my allegations against

Sandstrom and Hagerty are provided because it is important to determine the over-all
motivation and good faith, or lack thereof, of the North Dakota Supreme Court in this,
and subsequent disciplinary proceedings and decisions.
101.

It has further been decided by Judge Frank and the Eighth Circuit that, taking all

my allegations as true, I have adequate opportunity to have my rights protected in state
court proceedings. That is actually laughable. Again, I point out that I am actually
sueing in this case two of the five Justices who refuse to recuse themselves are still sitting
on and deciding cases against me. One, McEvers, even wrote the adverse decision in the
Discover matter. How on earth in any system ofjustice can that be fair, just and in
25

compliance with Due Process? Surely you wouldn’t want your opponents in one
case deciding your rights in another, nor would any fair minded person.
102.

Further, many of the parties to this action were not even parties in the state court

proceedings. How could I possibly have then asserted and pursued in the state court
proceeding my present claims against them in this case?
103.

It is further contested that exceptions to the Rooker-Feldman and

Younger doctrines have by my allegations, (again taken as true) been established.
If these prior decisions do prevent me from proceeding to protect my rights, they
should be re-examined, and clarified. Younger is some 50 years old. Rooker is over 75
years old. I, and all persons similarly situated should not have to be put through the
absolute Hell I have been subjected to. We, and the lower courts should by you be
instructed clearly as to our rights, the law and remedies thereunder.
104.

Our system of government is one of checks and balances. If my allegations are

accepted as true, and, indeed, prove to be true, the North Dakota state entities and
individuals named in this action must be subjected to federal court control and over­
sight. There is no one else to do it. Defendants cannot be permitted to run rough shod
over the rights I am here seeking to protect with impunity. In the face of the wrongs I am
alleging it is impossible to believe that I can receive any form ofjustice in state court
proceedings. The federal courts must step in to assure citizens of their rights, and day in
court, in the face of excessive and abusive use of state power.

26

105.

Finally, it is contended that North Dakota’s entire attorney disciplinary system is

unconstitutional in that it results in a taking of property without Due Process of law, and
fails to afford an attorney many other rights guaranteed to him or her by our laws and
Constitution. The ways in which that occurs, and the constitutional and other flaws
present in the system, e.g., no right to a jury trial, are enumerated above and will not be
here repeated. Please note that Bolinske’s (1) hard earned career as an attorney (2) his
license to practice law, wich could be suspended or even revoked, and (3) the cost, time
and resources necessary to fight the grievances all constitute Bolinske’s “property” which
cannot, under our Constitution, be taken without due process of law. It is respectfully
submitted that North Dakota’s attorney disciplinary system is woefully inadequate under
our Constitution. Why, it is submitted, can an attorney’s property be taken from him
without the protections under the constitution? An attorney’s “property” should have the
same protections afforded the property of any other citizen.
CONCLUSION
For the reasons set forth herein, it is respectfully requested that the decisions of
the lower courts be reversed and that this matter be remanded with directions to grant
Plaintiff-Appellant Bolinske’s Motion to Amend his Complaint.
Further, it is requested that (1) North Dakota’s attorney disciplinary system be
declared unconstitutional and (2) the defendants be prohibited and enjoined from further
disciplinary action against Bolinske until the State of North Dakota’s unconstitutional

27

attorney disciplinary system is corrected.

Dated

•H.303/
7

Respectfully Submitted,

Robert V. Bolinske
Attorney Pro Se
7600 Northgate Drive
Bismarck, ND 58504
701-390-6015

28

£

